>1 A*

-7274

y*

NO:

FILED
NOV l \ 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

IN THE

SUPREME COURT OF THE UNTIED STATES

MICHAEL DIABOLIS GRIFFIS - Petitioner,

v.

LES PARISH - Respondent.

PETITION FOR WRIT OF CERTIORARI

ORIGINAL

MICHAEL DIABOLIS GRIFFIS
MDOC #235794 IN PRO PER
OAKS CORRECTIONAL FACILITY
1500 CABERFAE HIGHWAY
MANISTEE, MICHIGAN 49660
PETITIONER / PRO PER

RECEIVED
JAN 2 8 2021

RECEIVED
DEC
2020

OFFICE OF THE CLERK
SUPREME COURT, U.S.

OFFICE OF THE CLERK
SUPREME COURT. H sP

■I*

QUESTIONS PRESENTED

I. WHETHER THE SIXTH CIRCUIT COURT OF APPEALS DECISION CONFLICTS WITH
CLEARLY ESTABLISHED LAW IN FARETTA V. CALIFORNIA AND CONFLICTS WITH
THE DECISIONS OF OTHER FEDERAL APPELLATE COURTS ON DEFINING AN
IN PROPRIA PERSONA, AND WHETHER THE
UNEQUIVOCAL REQUEST TO FI
DECISION VIOLATES PETITIONER'S RIGHT TO DISPENSE WITH THE ASSISTANCE
OF COUNSEL AS GUARANTEED WITHIN THE SIXTH AMENDMENT OF THE UNITED
STATES AND MICHIGAN CONSTITUTIONS • • •

ii

LIST OF PARTIES

MICHAEL DIABOLIS GRIFFIS - Petitioner IN PROPRIA PERSONA
LES PARISH, HARDEN - Respondent

iii

TABLE OF CONTENTS

Bree(a)
QUESTION PRESENTED

ii

PARTIES

iii

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

10
INDEX TO APPENDIXES

APPENDIX A: UNITED STATES SIXTH CIRCUIT COURT OF APPEALS ORDER DENYING
PETITIONER'S CERTIFICATE OF APPEALABILITY........................

1

APPENDIX B: UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF
MICHIGAN ORDER DENYING HABEAS RELIEF AND CERTIFICATE OF
APPEALABILITY................................................................

1

APPENDIX C: UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF
MICHIGAN REPORT AND RECOMMENDATION DENYING HABEAS RELIEF AND
CERTIFICATE OF APPEALABILITY...............................................

1

APPENDIX D: UNITED STATES DISTRICT COURT ORDER DENYING PETITIONER'S MOTION
OBJECTING TO THE REPORT AND RECOMMENDATION DENYING HABEAS
RELIEF AND CERTIFICATE OF APPEALABILITY................................. 1
APPENDIX E: MICHIGAN SUPREME COURT ORDER DENYING DEFENDANT'S APPLICATION
FOR LEAVE TO APPEAL............................... .............................

1

APPENDIX F: MICHIGAN COURT OF APPEALS ORDER DENYING DEFENDANT'S APP­
LICATION FOR LEAVE TO APPEAL........................................

1

APPENDIX G: ORDER OF THE NINTH JUDICIAL CIRCUIT TRIAL COURT DENYING
DEFENDANT'S MOTION FOR RELIEF FROM JUDGMENT................

2

APPENDIX H: MICHIGAN SUPREME COURT ORDER DENYING DEFENDANT'S APPLICATION
FOR LEAVE TO APPEAL.............................................................

2

APPENDIX I: MICHIGAN COURT OF APPEALS ORDER DENYING DEFENDANT'S APPEAL OF
RIGHT..................................................................................... 2

Iv

TABLE OF AUTHORITIES

Page(s)
FEDERAL CASES:
Adams v. United States ex rel McCann, 63 S. Ct. 236 (1975)
Buhl v. Cooksey, 223 F.3d 783 (3rd Cir. 2000) .................
Dorman v. Wainwright, 798 F.2d 1358 (11th Cir. 1986) ......
Faretta v. California, 422 U.S. 806 (1978) ......................
Griffis v. Parish, 2019 U.S. Dist. LEXIS 230304 ..............
Griffis v. Parish, 2020 U.S. App. LEXIS 28415 .................
Griffis v. Parish, 2020 U.S. Dist. LEXIS 66908 ................
Johnson v. Zerbst, 304 U.S. 458 (1938) ............................
Martinez v. Court of Appeals, 528 U.S. 152 (2000) ...........
U.S. v. Long, 597 F.3d 720 (5th Cir. 2010) ......................
U.S. v. Thomas, 357 F.3d 357 (3rd Cir. 2004) ...................

8

5,6
5,6
5,6,7,8,9
1
1
1
8,9
6,7
8

5,9

CONSTITUTIONAL AMENDMENTS):

Michigan Constitution 1963 Art 1, § 13 ..............
United States Constitutional Amendment Sixth ....
United States Constitutional Amendment Fourteenth

4
4
4

STATUTES AND COURT RULES:
28 U.S.C. § 1254 .................................
Judiciary Act of 1789, 1 stat. 92, § 35
Michigan Complied Law § 763.1 .............
Michigan Court Rule 6.005(D) ..............

3
10
4
4,10

v

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully request that this Honorable Court issue a writ
of certiorari to review the judgment below.

OPINIONS BELOW
FEDERAL COURT CASES:
The opinion of the Sixth Circuit Court of Appeals appears at Appendix A, to
the petition and is reported at Griffis v. Parish, 2020 U.S. App. LEXIS 28415
(6th CLr. Sept 8, 2020).
The opinion of the United States District Court appears at Appendix B, to this
petition and is reported at Griffis v. Parish, 2019 U.S. Dist. LEXIS 230304 (W.D.
Mich., July 15, 2019).
The Report and Recommendation of the United States District Court appears at
Appendix C, to this petition and is reported at Griffis v. Parish, 2020 U.S. Dist.
LEXIS 66908 (W.D. Mich., Apr 16, 2020).
The opinion of the United States District Court denying Petitioner's objection
to the Report and Recommendation appears at Appendix D, to this petition and is re­
ported at Griffis v. Parish, 2020 U.S. Dist. LEXIS 66908 (W.D. Mich., Apr 16, 2020).
STATE COURT CASES:
The opinion of the Michigan Supreme Gourt appears at Appendix E, to the
petition and is unpublished; May IDS, 2016.
The opinion of the Michigan Court of Appeals appears at Appendix F, to the
petition and is unpublished; May 12, 2015.

1

■*1

The opinion of the Ninth Judicial Circuit Trial Court appears at Appendix 6,
to the petition and is unpublished; August 16, 2016.
The opinion of the Michigan Supreme Gourt appears at Appendix H, to the petition
and is/was defaulted; June 26, 2017.
The opinion of the Michigan Court of Appeals appears at Appendix I, to the
petition and is unpublished; April 4, 2017.

i

!

I

]

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
UNITED STATES CONSTITUTION AMENDMENT VI:
"In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have the compulsory process for obtaining witnesses in his favor, and
to have the assistance of counsel for his defense."

UNTIED STATES CONSTITUTION AMENDMENT XIV:
"All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction to the
equal protections of the law."
MICHIGAN CONSTITUTION 1963 ARTICLE 1, § 13:
"Conduct of suits in person or by counsel. — A suitor in any court
of this state has the right to prosecute or defend his suit, either in his
own proper person or by an attorney."
MigiTCAN COMPILED LAWS § 763.1. RIGHTS OF ACCUSED; HEARING BY COUNSEL, DEFENSE,
PROOFS, CONFRONTING WITNESSES:
"On the trial of every indictment or other criminal accusations, the
party shall be allowed to be heard by counsel and may defend himself, and
he shall have a right to produce witnesses and proofs in his favor, and
meet the witnesses who are produced against him face to face."
MICHIGAN COURT RULE 6.005(D): APPOINTMENT OR WAIVER OF A LAWYER:
"If the court determines that the defendant is financially unable to
retain a lawyer, it must promptly appoint a lawyer and promptly notify
the lawyer of the appointment. The court may not permit the defendant
to make an initial waiver of the right to be represented by a lawyer without
first;
(1) advising the defendant of the charge, the maximum possible prison sen­
tence for the offense, any mandatory minimum sentence required by law,
and the risk involved in self representation, and
(2) offering the defendant the opportunity to consult with a retained lawyer or,
if the defendant is indigent, the opportunity to consult with an appointed
lawyer.

4

STATEMENT OF THE CASE
On March 6, 2017 during a motion hearing requested by then appointed trial
attorney John D. Gardiner to withdraw from the case due to a conflict of interest
and irreconcilable differences; and after the District Court denied the motion
reasoning that the defendant was not at liberty to "forum shop" for attorney's,
Petitioner stated to the court, "I'll represent myself." M. Hrg. 3-6-13, at pp.7-8.
When the Court did not acknowledge Petitioner's assertion, defense counsel Gardiner
then reiterated Petitioner's statement to the Court that Petitioner was "contem­
plating going pro per," to which the court also ignored. M. Hrg. 3-6-13, at pp. 6-7.
The Petitioner was bound over for trial and was convicted by a jury on
December 13, 2013 of two counts of Criminal Sexual Conduct, and was sentenced to
two counts of 50 to 75 years on January 13, 2014.

REASON FOR GRANTING THE PETITION
The Petitioner alleges that the Sixth Circuit Court of Appeals decision denying
habeas relief, and/or a certificate of appealability conflicts with the decision in
Faretta v. California, 422 U.S. 806 (1975); as well as the decision of the 3rd
Circuit Gourt of Appeals in Buhl v. Cooksey, 233 F.3d 783, 792 (3rd dr. 2000); also
see U.S. v. Thomas, 357 F.3d 357, 363 (3rd dr. 2004); the 11th drcuit Gourt of
Appeals in Darman v. Wainwright, 798 F.2d 1358, 1367 (11th dr. 1986), on the same
important matter and has decided an important federal question in a way that con­
flicts with a state court of last resort; or has so far departed from the accepted
and usual course of judicial proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Gourt's supervisory power.
The Sixth Amendment Constitutional provision of ''SELF-REPRESENTATION1' is a
right that is [only] absolute [after] it has properly been asserted and it has been

5

unequivocally established. Martinez v. Court of Appeals, 528 U.S. 152 (2000).
In asserting the right to self-representation, both the 3rd and 11th Circuit
Gourts held that there was [NO] ritualistic "talismanic formula'* required for the
petitioner to recite to invoke the provisions of the Sixth Amendment right:
"To invoke his Sixth Amendment right under Faretta a defendant does
not need to recite sane talismanic formula hoping to open eyes and ears
to the Gourt of his request. Insofar as the desire to proceed pro se is
concerned, petitioner must do no more than [state] his request, either
verbally or in writing, unambiguously to the Court so that no reasonable
person can say that the request was not made." Dorman v. Wainwright, 798
F.2d 1358, 1366 (11th Or. 1986).
"A defendant need not recite some talismanic formula hoping to open
Hie eyes and ears of the Gourt to his request to invoke his/her Sixth
Amendment right under Faretta. Dorman supra 366. Indeed, such a requirement
would contradict the right it was designed to [protect], as a defendant's
Sixth Amendment right of self-representation would then be conditioned
upon his or her knowledge of the precise language needed to assert it.
Rather than placing the burden on the defendant, the law simply requires
an affirmative, unequivocal, request, and does not require that request
to be written or in the form of a formal motion filed with the court."
Buhl v. Cooksey, 233 F.3d 783, 792 (3rd Cir. 2000).
Ihe Sixth Circuit Gourt of Appeals denied Petitioner's petition for a
Certificate of Appealability because Petitioner's statement "I'll represent myself"
was made in response to the Court's denial of defense counsel's motion to with­
draw. Furthermore, the Sixth Circuit Court's finding that defense counsel’s state­
ment to the Court reiterating Petitioner's desire to proceed pro se; "I think the
difficulty is now my client's indicated that he's perhaps contemplating going pro
per or pro se." ; "that counsel did not suggest to the court that Petitioner was
invoking his right to self-representation, and petitioner did not express dis­
agreement with counsel's statement that Petitioner was only contemplating re­
presenting himself"; this finding conflicts with the holdings of both Dorman and
Buhl because to uphold the Sixth Circuit's decision would in fact insinuate or
imply that there is some talismanic formula that a petitioner or an attorney [must]
recite before constitutional guarantees and protections are triggered.
First, Petitioner unequivocally asserted to the court's that he desired to

6

represent himself, and the court's completely disregarded Petitioner's assertion.
Second, defense counsel attempted to [alert] the Gourt to the fact that Petitioner
was attempting to assert this right, but the Court's continued to disregard the
Petitioner's assertion, and the Sixth Circuit Court clearly denied the Petitioner's
C.O.A because Petitioner nor defense counsel used "identified script" or some
recognized talismanic formula to alert the court's to the fact that Petitioner was
in fact asserting the right to self-representation.
The Appellate Court's also denied the petition on the grounds that Petitioner's
assertion did not reach the bar of being "unequivocal" and that the court's duty
to conduct a colloquy "Faretta" hearing [did not] activate until the Petitioner un­
equivocally invoked the right to self-representation. This conflicts with the
decision of the United States Supreme Court in Martinez v. Gourt of Appeals of Cal,
Fourth App. Dist •» 528 U.S. 152, 162$ 120 S. Ct. 684; 145 L. Ed 2d 597 (2000) in
which the court held:
"To invoke the right to self-representation, a defendant [first] must
assert his self-representation right 'in a timely manner.' [Second], the
defendant must 'knowingly and intelligently* waive the right to counsel
after being advised of "the dangers and disadvantages of self-representation."
Faretta, 422 U.S. at 835. Finally, a defendant's request for self-representation
must be made clearly and unequivocally. Id. at 422 U.S. at 835."
Again, as Petitioner outlined above the Petitioner timely asserted that in lieu
of the waiver of counsel, "petitioner would represent himself." As all courts have
recognized, there [must] be an unequivocal request made, this would be consistent
with the opinions of this Court. Petitioner then argues that even if the Court's
opted to consider Petitioner's request as unequivocal, and opted to casually dis­
regard it, then it stands to reason that defense counsel's statement deserved and
required more attention than the very blatant "slap in the face" disregard it
received by an officer of the court to a mutual officer of the court. It is clear
from the record that a determination was in fact never concluded as to whether or
not Petitioner's statement was an unequivocal assertion or not. Is a superior
court entitled to "assume" against the Petitioner when such a crisis of the
7

Constitution of the United States is involved? Furthermore, the court failed to
hold the "Faretta" hearing to ascertain whether Petitioner's assertion was un­
equivocally made. Johnson v. Zerbst, 304 U.S. 458, 464 (1938); U.S. v. Long,
597 F.3d 720, 724 (5th Cir. 2010).
Last, is the Sixth Circuit's determination that because the Petitioner was
dissatisfied with his attorney, Petitioner was not protected under the Sixth Amend­
ment right to "dispense with the assistance of counsel." (6th Cir. Ct. of App. Order
Sept. 8, 2020). See Adams v. United States ex rel. McCann, 63 S. Ct. 236, 242, 279280 (1975) holding:
"What were contrived as protections for the accused should not be
turned into fetters. To deny an accused a choice of procedure in circum­
stance in which, though a layman, is capable as any lawyer of making
intelligent choices, is to impair the worth of great constitutional
safeguards by treating them as empty verbalisms." Adams, 63 S. Ct. at 242.
"Wien the administration of the criminal law. • • is hedged about as
it is by the constitutional safeguards for protection of an accused, to
deny him in the exercise of his free choice the right to dispense with
is to imprison a man in his privileges
some of these safeguards
and call it the constitution."Id. at 279-280.
Protections are not actual protections; guarantees are not actual guarantees;
rights are not actual rights; and the United States Constitution is not [absolute]
when the provisions of the constitution are altered to umbrella judicial cir­
cumstance. There are circumstances in which a criminal defendant is not, and does
not make "good faith assertions" and their only intent is to disrupt the normal
process of the trial court's. But that is not the case for every criminal defendant
who has disagreed with an appointed defense attorney's trial strategy, and be­
cause the attorney and his client have a legitimate difference of opinion which
result in irreconcilable differences; and the District Court has failed to remedy
the problem by replacing counsel; is not the criminal defendant at liberty to
forego representation?
The Court is not at liberty to force unwanted appointed counsel unto the
Petitioner. First, the right to assistance of counsel and the [correlative] right

8

to dispense with a lawyer's help are not legal formalisms. They rest on considerations
that go to the substance of accused's position before the law. The public con­
science must be satisfied that fairness dominates the administration of justice.
An accused must have the means of presenting his best defense. He must have the
facilities for investigations and the production of evidence. But evidence and
truth are of no avail unless they can adequately be presented. Essential fairness
is lacking if the accused cannot effectively put his case into the Court. But the
constitution [does not force a lawyer upon a defendant]. He may waive his
constitutional right to assistance of counsel if he knows what he is doing and his
choice is made with eyes open." Johnson v. Zerbst, 304 U.S. 458, 468-469 (1938).
Also see Faretta v. California, 422 U.S. 806, 820-821 (1975), holding, "To thrust
counsel upon accused against his considered wish, thus violates the logic of the
amendment. In such a case, counsel is not an assistant, but a master; and the
right to make a defense is stripped away of the personal character upon which the
amendment insists. An unwanted counsel represents the defendant through a tenuous
and unacceptable legal fiction. Unless the accused has acquiesced in such representation, the defense presented is not the defense guaranteed him by the
constitution, for in a very real sense, it is not his defense." Thus, a defendants
refusal to cooperate with an attorney" would act as waiver of the right to
counsel. U.S. v. Thcms, 357 F.3d 357, 363 (3rd Clr. 2004).
The questions before this Court for consideration are:
(1) Whether or not it is constitutional for a court to ignore / not
United States Constitution?
(2) •

representation?

9

0\

,

(3). Whether or not a petitioner's dissatisfaction with appointed counsel
and refusal to cooperate and work with appointed counsel; acting
as a waiver of the right to the assistance of counsel, is sufficient
in denying a petitioner the right to self-representation under
the Sixth Amendment of the United States Constitution?
(4). Should the courts be required to make a record addressing any
assertion or attempt to assert a constitutional right?
The Court must exercise it's judicial discretion on these questions because
there are very important questions concerning the provisions of the Sixth Amend­
ment which must be protected. There has been several reviews by this Court on
the issue of self-representation, but the Court's have never addressed the issue
of whether or not it is constitutional for a lower court to simply ignore [any]
attempt to assert a constitutional right such as the right to proceed pro se in
a criminal trial.
Michigan Court Rule 6.5008(D) and the Judiciary Act of 1789, 1 stat. 92 § 35
both embody the right to the assistance of counsel, or to waive counsel and plead
and manage his own cause. In order to invoke the Sixth Amendment right, a criminal
defendant must unequivocally assert the right to the court. The issue that the
court did not accept, deny, acknowledge or in any way adjudicate on the issue
is relevant to the constitution. How many times must the petitioner invoke the
constitutional right before it is properly asserted? This is the consideration
before the Court.

CONCLUSION
In conclusion, Petitioner argues that in considering the questions presented
to this Gourt, of the many considerations adjudicated by this Court, there has
never truely been a complete discussion by this Court addressing what the
responsibility of the Court is in a criminal proceeding when there has been [any]
verbal or written statements to the court invoking or attempting to invoke a
constitutionally protected right. Furthermore, this Court has never addressed
whether it violates the Sixth Amendment right to proceed pro se, and the Fourteenth

10

Amendment right to a fair trial and Due Process of law when a court [fails] to
make a record and/or address an assertion of a right made by a criminal defendant.
The right to self-representation within the constitution and its legislative
intent was to guarantee that it was the defendant that had a right to be heard,
and that it was not just any defense, but the defendant's own defense being put
forward in a trial contesting a complaint on indictment against him, because
it is his life and liberty in jeopardy of being lost. The [only] reason that the
right to self-representation is not [absolute] is because the primary objective
and goal of the constitutional provision was to ensure that a defendant was
afforded a fair trial by providing counsel to assist a defendant on points of
the law a lay defendant would not be privy to.
In order to trigger the right, first an unequivocal assertion must be made.
The consideration then becomes what makes the determination that an assertion
is unequivocal? And because a constitutional right is involved, does it violate
due process to not make a record of the determination being considered?
The Courts again must consider that further consideration is needed to
protect petitioner and other defendant's from having the constitution used
against him adversley to convict him unfairly. Petitioner prays that this Court
will grant Certiorari and grant any other relief this Honorable Court deems
appropriate.

Respectful
//-

Date:

MICHAEL D. GRIFFIS SW.
MDOC #235794
Oaks Correctional Facility
1500 Cabarfae Highway
Manistee, Michigan 49660
Petitioner fn Pro Per

11

k

